U.S. Department of Justice
Office of the Inspector General




   Report to Congress on Implementation
   of Section 1001 of the USA PATRIOT Act
       (as required by Section 1001(3) of Public Law 107-56)




                                            August 2008
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) of the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report –
the thirteenth since enactment of the legislation in October 2001 – summarizes
the OIG’s Section 1001-related activities from January 1, 2008, through
June 30, 2008.

I. INTRODUCTION

      According to the Inspector General Act, the OIG is an independent entity
within the DOJ that reports to both the Attorney General and Congress. The
OIG’s mission is to investigate allegations of waste, fraud, and abuse in DOJ
programs and personnel and to promote economy and efficiency in DOJ
operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Attorneys’
Offices, and other DOJ components.1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division is responsible for independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division conducts program and
           management reviews that involve on-site inspection, statistical
           analysis, and other techniques to review Department programs and
           activities and make recommendations for improvement.

       •   Investigations Division is responsible for investigating allegations of
           bribery, fraud, abuse, civil rights violations, and violations of other
           criminal laws and administrative procedures that govern Department
           employees, contractors, and grantees.




       1  The OIG can investigate allegations of misconduct by any Department employee,
except for allegations of misconduct "involving Department attorneys, investigators, or law
enforcement personnel, where the allegations relate to the exercise of the authority of an
attorney to investigate, litigate, or provide legal advice . . . . " See 5 U.S.C. App. 3 §8E(b)(3).


Office of the Inspector General, U.S. Department of Justice                                Page 1
      •   Oversight and Review Division blends the skills of attorneys,
          investigators, and program analysts to investigate or review high
          profile or sensitive matters involving Department programs or
          employees.

      •   Management and Planning Division provides planning, budget,
          finance, personnel, training, procurement, automated data
          processing, computer network communications, and general support
          services for the OIG.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      The OIG has a staff of approximately 400 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 7 Audit Division regional offices located
throughout the country.

II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

            The Inspector General of the Department of Justice shall
            designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.




Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Review information and receive complaints alleging abuses of civil rights
       and civil liberties by employees and officials of the Department of Justice.

      The OIG’s Special Operations Branch in its Investigations Division
manages the OIG’s investigative responsibilities outlined in Section 1001.2 The
Special Agent in Charge who directs this unit is assisted by three Assistant
Special Agents in Charge (ASAC), one of whom assists on Section 1001 and
DEA matters, a second who assists on FBI matters, and a third who provides
support on ATF cases. In addition, five Investigative Specialists support the
unit and divide their time between Section 1001 and FBI/DEA/ATF
responsibilities.

      The Special Operations Branch receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. The complaints are
reviewed by an Investigative Specialist. After review, each complaint is entered
into an OIG database and a decision is made concerning its disposition. The
more serious civil rights and civil liberties allegations that relate to actions of
DOJ employees or DOJ contractors normally are assigned to an OIG
Investigations Division field office, where OIG special agents conduct
investigations of criminal violations and administrative misconduct.3 Some
complaints are assigned to the OIG’s Oversight and Review Division for
investigation.

       Given the number of complaints received compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs for handling. In certain referrals, the OIG requires the components to
report the results of their investigations to the OIG. In most cases, the OIG
notifies the complainant of the referral.

      Many complaints received by the OIG involve matters outside our
jurisdiction. The ones that identify a specific issue for investigation are
forwarded to the appropriate investigative entity. For example, complaints of
mistreatment by airport security staff or by the border patrol are sent to the
      2 This unit also is responsible for coordinating the OIG’s review of allegations of

misconduct by employees in the FBI, DEA, and ATF.

        3 The OIG can pursue an allegation either criminally or administratively. Many OIG

investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not end in prosecution. When this occurs, the OIG is able to continue
the investigation and treat the matter as a case for potential administrative discipline. The
OIG’s ability to handle matters criminally or administratively helps to ensure that a matter can
be pursued administratively, even if a prosecutor declines to prosecute a matter criminally.


Office of the Inspector General, U.S. Department of Justice                          Page 3
Department of Homeland Security (DHS) OIG. We also have forwarded
complaints to the OIGs of the Department of Defense, the Department of the
Interior, the Department of the Treasury, and the United States Postal Service.
In addition, we have referred complainants to state Departments of Correction
that have jurisdiction over the subject of the complaints.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, we discuss the
complaint with the DOJ Civil Rights Division for possible prosecution. In some
cases, the Civil Rights Division accepts the case and requests additional
investigation either by the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution and either the OIG or the appropriate DOJ
internal affairs office reviews the case for possible administrative misconduct.

     A. Complaints Processed This Reporting Period

       From January 1, 2008, through June 30, 2008, the period covered by
this report, the OIG processed 507 Section 1001-related complaints.4

       Of these complaints, we concluded that 418 did not fall within the OIG’s
jurisdiction or did not warrant further investigation. Approximately 334 of
these 418 complaints involved allegations against agencies or entities outside
of the DOJ, including other federal agencies, local governments, or private
businesses. When possible, we referred those complaints to the appropriate
entity or advised complainants of the entity with jurisdiction over their
allegations. The remaining 84 of the 418 complaints raised allegations that, on
their face, did not warrant investigation. Complaints in this category included,
for example, allegations that the FBI was harassing individuals through the use
of electromagnetic, chemical, and electronic mind control weaponry.

      The remaining 89 of the 507 total complaints involved DOJ employees or
components and included allegations that required further review. We
determined that 85 complaints raised management issues that generally were
not related to our Section 1001 duties, and we referred these complaints to
DOJ components for appropriate handling. Examples of complaints in this
category included inmates’ allegations about the general conditions at federal
prisons and complaints that the FBI did not initiate an investigation into
particular allegations.

      The OIG identified the 4 remaining complaints as matters that we
believed warranted an investigation to determine if Section 1001-related abuse
occurred. One of the matters is being investigated by the OIG and 3 of the


     4 This number includes all complaints in which the complainant makes any mention of a
Section 1001-related civil rights or civil liberties violation, even if the allegation is not within
the OIG’s jurisdiction.


Office of the Inspector General, U.S. Department of Justice                             Page 4
matters were referred to the BOP for investigation. We discuss the substance
of these 4 complaints in the next section of this report.

       None of the 507 complaints we processed during this reporting period
specifically alleged misconduct by DOJ employees relating to use of a provision
in the Patriot Act.

      The following is a synopsis of the complaints processed during this
reporting period:

      Complaints processed:                        507

      Unrelated complaints:                        418

      Total complaints within OIG’s
       jurisdiction warranting review:              89

         •   Management issues:                     85

         •   Possible Section 1001 matters
             warranting investigation:                4

    B. Section 1001 Cases This Reporting Period

      1. New matters

      During this reporting period, the OIG opened one new Section 1001
investigation. Additionally, the OIG referred three Section 1001-related
complaints to the BOP for investigation.

      The following is a summary of the new matter opened by the OIG during
   this reporting period:

         •   The OIG investigated an inmate’s allegations that a BOP employee
             called an inmate a “nigger” and a “towelhead Taliban,” punched
             him in the face, and shoved him into a shower stall. The inmate
             further alleged that he requested an injury assessment but did not
             receive one. During the course of the investigation, the inmate
             refused to submit to a polygraph examination and admitted that he
             had fabricated the allegations. The investigation of this matter is
             completed and it is awaiting administrative closure.

          The following three complaints were referred by the OIG to the BOP
      for investigation during this reporting period. The investigations of these
      matters are continuing. For each of these referrals, we requested that



Office of the Inspector General, U.S. Department of Justice            Page 5
      the BOP provide the OIG with a copy of its investigative reports upon
      completion of the investigations.

         •   An inmate complained to BOP and in a lawsuit he filed in federal
             court that BOP officials unfairly classified him as an Islamic
             extremist and placed him on the “International Terrorist Watch
             List” in retaliation for his Islamic writings. The inmate complained
             further that after the court ordered that he be transferred to
             another facility so he could be closer to his family, BOP increased
             his security classification, rendering him ineligible for the transfer.
             The inmate also alleged that when he filed a complaint with BOP
             he was told by BOP officials that it would be months before the
             error, if one existed, would be corrected.

         •   The wife of a Muslim inmate alleged that BOP staff wrongly
             reported that she and her husband had engaged in a sexual act
             while in the visiting room of a BOP facility, which resulted in the
             complainant losing her visitation rights and her husband being
             placed in the Special Housing Unit. The complainant alleged that
             the BOP was discriminating against her and her husband because
             of their Islamic faith.

         •   An inmate alleged that a BOP Physician’s Assistant refused to
             provide him with medical treatment and called him a terrorist. The
             inmate further alleged that the Physician’s Assistant made false
             entries to his medical records chart that tarnished his character.

      2. Cases opened during previous reporting periods that the OIG
         continues to investigate

         •   The OIG is investigating allegations that a BOP inmate was
             physically and verbally abused by correctional officers because of
             his Arab ethnicity and Muslim faith. The complaint includes
             allegations that correctional officers pushed the inmate against a
             wall, placed him in a cold cell with water on the floor, confiscated
             his undergarments and gave him undergarments with holes
             instead, and confiscated his legal documents and “misplaced”
             them. The OIG investigation is ongoing.

      3. Investigations closed during this reporting period

         •   The OIG investigated allegations that BOP employees violated the
             civil rights of the spouse of a Muslim inmate when she visited her
             husband at a BOP facility. The complainant alleged that she was
             unfairly targeted for personal searches and unnecessary document
             requests because of her Muslim faith and attire. The complainant


Office of the Inspector General, U.S. Department of Justice               Page 6
             also alleged that the denial of her husband’s request for relocation
             to a satellite camp at the facility was denied due to religious
             discrimination. The OIG investigation did not find evidence
             supporting the allegations of civil rights violations or
             discrimination by BOP personnel based upon the complainant’s or
             her husband’s religious affiliation.

         •   The OIG investigated allegations made by a BOP inmate that
             correctional officers came into his Special Housing Unit cell during
             a routine movement of the inmate and referred to the complainant
             and his cellmate as “camel jack” and “Saddam Hussein.” The
             inmate further alleged that when he asked the correctional officers
             not to speak to him in that manner, they assaulted him. However,
             the inmate refused to cooperate with investigators, and the OIG
             investigation found insufficient evidence to substantiate the
             allegations.

         •   The OIG referred to the BOP for investigation allegations that when
             a Muslim inmate returned to his cell after it had been searched, he
             discovered that his Koran had been moved to the floor and stepped
             on. The BOP interviewed the correctional officers who were
             involved in the search and stated that they had not left the
             complainant’s Koran on the floor of his cell and had not stepped on
             it. The BOP concluded that there was insufficient evidence to
             support the allegations.

         •   The OIG referred to the BOP for investigation allegations made by a
             Muslim inmate that he was threatened by BOP staff and subjected
             to “administrative sanctions and racial epithets” on an ongoing
             basis from the time he arrived at a BOP facility. When the
             complainant was interviewed by BOP’s Office of Internal Affairs he
             requested to withdraw his complaint, saying that his allegations
             were false or incorrect.




Office of the Inspector General, U.S. Department of Justice             Page 7
IV. OTHER ACTIVITIES RELATED TO POTENTIAL CIVIL RIGHTS
    AND CIVIL LIBERTIES ISSUES

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. The OIG has initiated or continued several
such special reviews that relate to the OIG’s duties under Section 1001. These
reviews are discussed in this section of the report.

      A. Review of the FBI’s Use of National Security Letters and Ex Parte
         Orders for Business Records

      In March 2008, as required by the USA PATRIOT Improvement and
Reauthorization Act of 2005 (Public Law 109-177) (Patriot Reauthorization Act),
the OIG issued two follow-up reports that examined the FBI’s use of two
authorities established or amended by the Patriot Act:

      (1) the FBI’s authority to issue national security letters to obtain –
without a court order – certain categories of records from third parties,
including telephone toll billing records, electronic communication transactional
records, financial records, and credit information; and

      (2) the FBI’s authority to obtain business records from third parties by
applying for ex parte orders issued by the Foreign Intelligence Surveillance
Court pursuant to Section 215 of the Patriot Act.

       The Patriot Reauthorization Act directed the OIG to review the extent to
which the FBI has used these authorities; any bureaucratic impediments to
their use; how effective these authorities have been as investigative tools and in
generating intelligence products; how the FBI collects, retains, analyzes, and
disseminates information derived from these authorities; whether and how
often the FBI provided information derived from these authorities to law
enforcement officials for use in criminal proceedings; and whether there has
been any improper or illegal use of these authorities. See Sections 106A and
119 of Public Law 109-177.

      In March 2007, the OIG had issued our first report on the FBI’s use of
national security letters (NSL). In it, we reviewed the FBI’s use of NSLs from
2003 through 2005. We found serious and widespread misuse of NSL
authorities, such as issuing NSLs without proper authorization, making
improper requests under the statutes cited in the NSLs, and conducting
unauthorized collection of telephone or Internet e-mail transactional records.

      Our March 2007 report on the FBI’s use of its authority to obtain ex
parte orders for business records under Section 215 of the Patriot Act was also
issued in March 2007. It examined the FBI’s use of this authority from 2002


Office of the Inspector General, U.S. Department of Justice             Page 8
through 2005. We found two instances involving improper use of Section 215
orders in 2005 and significant delays within the FBI and the Department in
processing requests for Section 215 orders throughout the time period that we
reviewed.

       The OIG’s March 2008 follow-up reports examined the FBI’s use of NSLs
and Section 215 orders during 2006. The March 2008 NSL report also
described and assessed the measures that the FBI and the Department have
implemented or proposed to address the serious misuse of NSL authorities that
our March 2007 NSL report described. The OIG produced classified reports on
the use of NSLs and Section 215 authority and provided these classified reports
to Congress and to the Intelligence Oversight Board of the President’s
Intelligence Advisory Board. We also released publicly unclassified versions of
these reports.

            1. Report on the FBI’s Use of National Security Letters in
            2006

       In our March 2008 follow-up report, we determined that the FBI and the
Department have made significant progress implementing recommendations in
our first report and adopting corrective actions to address the serious problems
we identified. Measures implemented by the FBI include a new NSL data
system designed to facilitate the issuance and tracking of NSLs and ensure
accurate reports to Congress and the public on NSL usage, issuing NSL
guidance memoranda and conducting training of field and headquarters
personnel, and creating a new Office of Integrity and Compliance modeled after
private sector compliance programs. We also found that the FBI has devoted
substantial time, energy, and resources ensuring that its field managers and
agents understood the seriousness of the FBI’s shortcomings in its use of NSLs
and their responsibility for correcting these deficiencies. In addition, the
Department’s National Security Division has instituted periodic national
security reviews of FBI field and Headquarters divisions to assess whether the
FBI was using various intelligence techniques, including NSLs, in accordance
with applicable laws, guidelines, and policies.

       Our report also analyzed three NSL reviews conducted by the FBI
following the release of our first report. One review examined a random 10
percent sample of counterterrorism, counterintelligence, and foreign computer
intrusion cyber investigation case files active in FBI field offices between 2003
and 2006. This review confirmed the types of NSL-related deficiencies and
possible intelligence violations that we identified in our first report. The FBI’s
statistically valid sample of field case files found a rate of NSL violations (9.43
percent) higher than what we found (7.5 percent) in the non-statistical sample
of NSLs we examined in our first report.




Office of the Inspector General, U.S. Department of Justice               Page 9
      Regarding NSL usage in 2006, we found a continued upward trend in the
use of NSLs, with 49,425 NSL requests issued in 2006 – a 4.7 percent increase
from the previous year. For the 4-year period, from 2003 through 2006, the
FBI issued more than 192,000 NSL requests. On average, approximately one-
third of all counterterrorism, counterintelligence, and cyber investigations that
were open at any time during 2006 employed NSLs. Our review also found that
the percentage of NSL requests related to investigations of U.S. persons
continued to increase, from approximately 39 percent of all NSL requests in
2003 to approximately 60 percent in 2006.

        In response to the directive in the Patriot Reauthorization Act to identify
any “improper or illegal” use of NSLs, we described 84 possible intelligence
violations involving the use of NSLs in 2006 that were self-reported to FBI
Headquarters. Of these 84 possible violations, the FBI concluded that 34
needed to be reported to the President’s Intelligence Oversight Board (IOB) in
2006. The 34 matters that were reported included errors, such as issuing
NSLs without proper authorization, improper requests, and unauthorized
collection of telephone or Internet e-mail records. We found that 20 of these
violations were attributable to mistakes made by the FBI, while 14 resulted
initially from mistakes by recipients of NSLs. The number of possible
intelligence violations identified by FBI personnel in 2006 was significantly
higher than the 26 violations reported from 2003 through 2005, of which 19
were reported to the IOB. We believe that the increase may be due in large part
to the attention garnered by our first NSL review and to increased training,
guidance, and oversight by the FBI. Although the number of self-reported
violations increased, the large number of unreported violations found during
the FBI’s three NSL reviews demonstrated that the overwhelming majority of
violations were not identified and self-reported by the FBI.

       As directed by the Patriot Reauthorization Act, we also examined whether
NSLs issued after the effective date of the Patriot Reauthorization Act contained
the required certifications to impose non-disclosure and confidentially
requirements on NSL recipients. In the random sample of NSLs we reviewed,
we found that 97 percent of the NSLs imposed non-disclosure and
confidentiality requirements and almost all contained the required
certifications. We found that a small percentage of the justifications for
imposing this requirement were perfunctory and conclusory, and a small
number of the NSL approval memoranda failed to comply with internal FBI
policy.

      We made 17 additional recommendations to help improve the FBI’s use
and oversight of NSLs, including: providing additional guidance and training
for FBI agents on the proper use of NSLs and on the reviewing, filing, and
retention of NSL-derived information; reinforcing the need for FBI agents and
supervisors to determine whether there is adequate justification for imposing
non-disclosure and confidentiality requirements on NSL recipients; regularly


Office of the Inspector General, U.S. Department of Justice              Page 10
monitoring the preparation and handling of NSLs; and providing timely reports
of possible intelligence violations to FBI Headquarters. The FBI agreed with the
recommendations and said it would implement additional actions to address
our findings.5

               2. Report on the FBI’s Use of Section 215 Orders in 2006

       Our March 2008 follow-up review of the FBI’s use of Section 215 orders
in 2006 to obtain business records found that FBI agents encountered similar
processing delays for Section 215 applications as those identified in our
previous report. Our review did not identify any illegal use of Section 215
orders in 2006. However, we found two instances when the FBI received more
information than it requested in the Section 215 orders. In one case,
approximately 2 months passed before the FBI recognized it was receiving
additional information that was beyond the scope of the Foreign Intelligence
Surveillance Court order. In the other case, the FBI quickly determined that it
inadvertently received information not authorized by the Section 215 order and
isolated the records. However, the FBI subsequently concluded that it should
be able to use the material as if it were “voluntarily produced” because the
information was not statutorily protected. We disagreed with this conclusion,
and our report recommended that the FBI develop procedures for identifying
and handling information that is produced in response to, but outside the
scope of, the Section 215 order.

       In response to the Patriot Reauthorization Act’s directive to identify any
“noteworthy facts or circumstances” related to the use of Section 215 orders,
our report discussed another case in which the Foreign Intelligence
Surveillance Court twice refused to authorize a Section 215 order based on
concerns that the investigation was premised on protected First Amendment
activity. The FBI subsequently issued NSLs to obtain information based on the
same factual predicate and without a review to ensure the investigation did not
violate the subject’s First Amendment rights. We questioned the
appropriateness of the FBI’s actions because the NSL statute contains the
same First Amendment caveat as the Section 215 statute.

      Finally, as directed by the Patriot Reauthorization Act, we examined the
interim procedures adopted by the Department for Section 215 orders to
minimize the retention and prohibit the dissemination of non-publicly available
information about U.S. persons. We concluded that the interim procedures
adopted in September 2006 do not provide specific guidance for minimization
that the Patriot Reauthorization Act appeared to contemplate. The OIG report
recommended that the Department develop specific minimization procedures
related to Section 215 orders.
       5 We also are completing a detailed investigation of the FBI’s use of exigent letters, a
practice that we generally described in our first NSL report. The results of that investigation
will be described in a separate report, which will be completed in the next several months.


Office of the Inspector General, U.S. Department of Justice                           Page 11
      B. Review of FBI Conduct Relating to Detainees in Military
         Facilities in Guantanamo Bay and Iraq

       In May 2008, the OIG issued a report that examined the FBI’s
involvement in and observations of detainee interrogations in Guantanamo
Bay, Afghanistan, and Iraq. The OIG review examined whether FBI agents
participated in any detainee abuse, witnessed incidents of detainee abuse in
the military zones, or reported abuse to their superiors or others. The review
also examined how FBI reports of abuse were handled within the FBI and the
Department of Justice. In addition, the OIG examined the adequacy of the
policies, guidance, and training the FBI provided to the agents it deployed to
the military zones.

        As part of its review, the OIG distributed a detailed survey to over 1,000
FBI employees deployed to one or more of the military facilities under the
control of the Department of Defense (DOD) between 2001 and 2004. Among
other things, the team’s survey sought information regarding observations or
knowledge of various interrogation techniques, including using water to create
the sensation of drowning (“waterboarding”), using military dogs to frighten
detainees, and mistreating the Koran. During the investigation, the team
interviewed more than 230 witnesses and reviewed over 500,000 pages of
documents provided by the FBI, other DOJ components, and the DOD. In
addition, team members made two trips to Guantanamo to tour the detention
facilities, review documents, and interview witnesses, including five detainees
held there.

       The OIG’s report described the concerns raised by FBI agents who were
involved in the early interrogations of two high value detainees, Abu Zubaydah
and Muhammad Al-Qahtani. FBI agents assisting with the Zubaydah
interrogations at an overseas facility observed Central Intelligence Agency (CIA)
interrogators use harsh techniques. As a result, FBI Director Robert Mueller
ultimately decided in approximately August 2002 that the FBI would not
participate in joint interrogations of detainees with other agencies in which
techniques not allowed under FBI policy would be employed. Later in 2002,
FBI agents at Guantanamo became concerned when the military announced a
plan to keep Al-Qahtani awake during continuous 20-hour interviews every day
for an indefinite period and when the FBI agents observed military
interrogators use increasingly harsh and demeaning techniques on Al-Qahtani
and others. Several FBI agents raised concerns with DOD and FBI
Headquarters, and some of these concerns were communicated to senior
officials in the DOJ Criminal Division and ultimately to the Attorney General.
We found no evidence that the FBI’s concerns influenced DOD interrogation
policies, however.




Office of the Inspector General, U.S. Department of Justice              Page 12
       The OIG also examined the guidance and training that the FBI provided
to its agents. We found that the FBI did not issue specific guidance to its
agents relating to the joint interrogation of detainees until after the Abu Ghraib
disclosures in April 2004, and that the policy that the FBI issued in May 2004
did not adequately address agent concerns regarding such matters as defining
when FBI agents should report abuse or mistreatment by other agencies’
interrogators.

       The OIG survey of over 1,000 FBI employees who served at Guantanamo
or in Afghanistan or Iraq during 2001 to 2004 found that most agents did not
report seeing or hearing about the use of aggressive interrogation techniques.
However, over 300 agents said they did see or hear about military interrogators
using a variety of harsh interrogation techniques on detainees. The most
commonly reported techniques included sleep deprivation or disruption
(sometimes involving loud music or bright lights), short-shackling, stress
positions, prolonged isolation, and hooding or blindfolding. Although some
agents made reports of these matters to their supervisors, others said they did
not make such reports because they understood these techniques to have been
approved for other agencies’ interrogators.

       The OIG also investigated allegations that particular FBI agents
participated in abuse of detainees in the military zones. In general, we did not
find support for the allegations that FBI agents participated in abuse of
detainees. In a few instances, FBI agents used or participated in interrogations
during which techniques were used that would not normally be permitted in
the United States. These incidents were infrequent and were sometimes
related to the unfamiliar circumstances agents encountered in the military
zones. The incidents in no way resembled the incidents of detainee
mistreatment that occurred at the Abu Ghraib prison in Iraq.

      In sum, the OIG found that the vast majority of the FBI agents deployed
in the military zones dealt with tensions related to the use of aggressive
interrogation techniques by separating themselves from interrogators using
non-FBI techniques and by continuing to adhere to FBI policies. We believe
that while the FBI could have provided clearer guidance earlier, and while the
FBI could have pressed harder for resolution of concerns about detainee
treatment by other agencies, the FBI should be credited for its conduct and
professionalism in detainee interrogations in the military zones in Guantanamo
Bay, Afghanistan, and Iraq and in generally avoiding participation in detainee
abuse.




Office of the Inspector General, U.S. Department of Justice             Page 13
      C. Review of the Department’s Involvement with the National
         Security Agency’s Terrorist Surveillance Program or Warrantless
         Surveillance Program

      The OIG is reviewing the Department’s involvement with the National
Security Agency (NSA) program known as the “terrorist surveillance program”
or “warrantless surveillance program.” This ongoing review is examining the
Department’s controls and use of information related to the program and the
Department’s compliance with legal requirements governing the program.

      The Foreign Intelligence Surveillance Act of 1978 Amendments Act of
2008 requires intelligence community inspectors general, including the
Department of Justice OIG, to conduct a comprehensive review of the terrorist
surveillance program. The recently enacted law specifies that the Inspectors
General avoid duplication and delay by coordinating their reviews of the
program. The Inspectors General involved have begun coordination to comply
with the requirements of the Act.

            D. Audit of the Department’s Watchlist Nomination Process

      In March 2008, the OIG completed an audit of the processes used
throughout the Department for nominating individuals to the
consolidated terrorism watchlist maintained by the TSC. This audit examined
the specific policies and procedures of Department components for nominating
individuals to the consolidated watchlist. In addition to evaluating DOJ’s
nomination processes, this audit also examined the DOJ’s processes for
ensuring the accuracy of the nominations and modification of those records;
removing watchlist records when appropriate; and the sharing of international
and domestic counterterrorism information in the possession of DOJ
components. The audit also reviewed the training provided to the individuals
who are involved in the nominating process. The Department components we
reviewed included the FBI, the DEA, the ATF, and the United States Marshals
Service.

      The FBI is the only DOJ component that formally nominates known or
suspected terrorists for inclusion on the consolidated terrorist watchlist.
Although ATF, DEA, BOP, and the U.S. Marshals Service do not formally
nominate individuals to the consolidated terrorist watchlist, terrorist-related
information may come into their possession through their day-to-day
operations. In these cases, we found that these components generally shared
information with the FBI in an informal manner.

      Between January 1, 2005, and November 29, 2007, the FBI processed
over 8,000 watchlist nominations. The OIG audit found that FBI had
developed a formal policy for nominating known or suspected terrorists to the
watchlist, had sound record management procedures for its standard watchlist


Office of the Inspector General, U.S. Department of Justice            Page 14
nominations, and had provided basic training on the watchlist nomination
process to its staff. In addition, the audit found that the FBI had established
criteria and quality controls to assist in developing proper and accurate
watchlist nominations.

       However, the OIG audit also found that FBI case agents did not always
update watchlist records when new information became known and that the
FBI did not always remove watchlist records when it was appropriate to do so.
Moreover, watchlist nomination submissions from field offices were often
incomplete or contained inaccuracies, causing delays in the processing of
nominations. Additionally, FBI field offices at times bypassed FBI
headquarters and the internal controls in the FBI process by submitting
nominations directly to National Counterterrorism Center (NCTC). This
practice could affect the completeness of FBI records that support the
nominations forwarded for inclusion on the watchlist. Moreover, the FBI
prepares and disseminates terrorist-related intelligence reports throughout the
Intelligence Community. Our audit found that although the FBI did not intend
for these reports to be official watchlist nominations, the NCTC used
information from these FBI intelligence reports to create watchlist records that
were sourced to the FBI. Because the FBI was not aware of this NCTC practice,
the FBI did not monitor these records to ensure that they were updated or
removed when appropriate.

      The OIG made seven recommendations to the Department and individual
components to help improve watchlist nomination policies, processes, and
practices. The Department and the components agreed to implement the
recommendations.

      We conducted this review in conjunction with other Intelligence
Community OIGs, who also examined the watchlist nomination process in their
respective agencies.

      E. Follow-up Audit of the Terrorist Screening Center

In September 2007, the OIG completed a follow-up to our 2005 audit of the
Terrorist Screening Center (TSC), a multi-agency effort administered by the FBI
to consolidate terrorist watchlists and provide 24-hour, 7-day a week responses
for screening individuals. The follow-up audit concluded that the TSC has
made improvements since our previous audit, but weaknesses still exist in
several watchlist processes and significant deficiencies remain in the data
contained in the consolidated terrorist watchlist. The OIG made 18
recommendations to help the FBI improve TSC operations and the quality of its
watchlist data. The FBI has taken sufficient actions to address 13 of the 18
recommendations. The FBI has initiated corrective action on the remaining five




Office of the Inspector General, U.S. Department of Justice            Page 15
recommendations, but additional work is needed to fully address these
recommendations. These open recommendations relate to the development of
a streamlined FBI watchlist nomination process, the development of a
comprehensive plan to complete the record-by-record quality assurance review
of the Terrorist Screening Database, development of proactive methods for
ensuring that the TSC receives data related to other screening agency
encounters, development of timeliness measures for the FBI’s internal redress
process, and the incorporation of these measures into the TSC strategic plan.

      F. The FBI’s Watchlist Nomination Practices

       The OIG is currently conducting an audit that relates to our March 2008
audit of the Department’s processes for nominating individuals to the
consolidated terrorism watchlist maintained by the TSC. This audit will
determine whether subjects of open FBI cases are appropriately and timely
watchlisted and whether watchlist records are updated with new identifying
information as required. The audit will also examine whether subjects of
closed FBI investigations are appropriately removed from the consolidated
terrorist watchlist in a timely manner.

      G. The FBI’s Terrorist Threat and Suspicious Incident Tracking
         System

      The OIG is completing an audit that evaluates the policies and
procedures the FBI uses to identify, assess, and track terrorist threats and
suspicious incidents. After the September 11 terrorist attacks, the FBI
required that every terrorism-related lead from its own sources or from its
federal, state, or local partners be addressed. The FBI’s principal automated
system to track terrorist threats and suspicious incidents is its Guardian
Threat Tracking System (Guardian). This audit is examining the development,
implementation, and maintenance of Guardian.




Office of the Inspector General, U.S. Department of Justice          Page 16
V. EXPENSE OF IMPLEMENTING SECTION 1001

      Section 1001 requires the OIG to:

      Submit to the Committee on the Judiciary of the House of Representatives
      and the Committee on the Judiciary of the Senate on a semi-annual basis
      a report…including a description of the use of funds appropriations used to
      carry out this subsection.

       During this reporting period, the OIG spent approximately $1,513,934 in
personnel costs, $3,009 in travel costs (for investigators to conduct interviews),
and $29,529 in miscellaneous costs, for a total of $1,546,472 to implement its
responsibilities under Section 1001. The total personnel and travel costs
reflect the time and funds spent by OIG special agents, inspectors, and
attorneys who have worked directly on investigating Section 1001-related
complaints, conducting special reviews, and implementing the OIG’s
responsibilities under Section 1001.




Office of the Inspector General, U.S. Department of Justice             Page 17
